OIG Investigative Reports, Washington DC., June 08, 2012 - American Samoa Department of Education Official Sentenced to 35 Months in Prison for Witness Tampering and Obstruction of Justice
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
Office of Public Affairs
FOR IMMEDIATE RELEASE
Friday, June 08, 2012
American Samoa Department of Education Official Sentenced to 35 Months in Prison for Witness Tampering and Obstruction of Justice
WASHINGTON – Paul Solofa, the former chief financial officer for the Department of Education for the government of the U.S. Territory of American Samoa was sentenced today to 35 months in prison following his conviction earlier this year for his efforts to obstruct a federal grand jury and law enforcement investigation into a bribery scheme, announced Assistant Attorney General Lanny A. Breuer of the Justice Department's Criminal Division.
The sentence was imposed by U.S. District Court Judge Reggie B. Walton in the District of Columbia.  After a four-day trial in January 2012, a federal jury in the District of Columbia found Solofa, 50, guilty of one count of witness tampering and one count of obstruction of justice.
According to evidence presented at trial, in approximately early 2008, federal authorities began conducting an investigation into allegations of cash bribes and kickbacks paid by vendors to officials of the American Samoa Government in connection with the government's purchase of school bus parts and services.
According to the trial evidence, Solofa met on April 3, 2009, with a school bus parts vendor who told Solofa that the FBI was interested in interviewing the vendor regarding the bus parts investigation.  Solofa, in a recorded meeting, allegedly told the vendor that, "They cannot do anything with cash.  Nothing.  They cannot do anything with cash.  They cannot track down you on cash.  Because even if you say you gave me cash I'll tell them 'no.'  They cannot take your word on cash.  Because that's hearsay.  So you know, but the best thing for you to do is 'nope, I never give them any cash, I never' – because that will open up the whole operation . . . You get what I am saying.  All you do is just tell them 'no, yes, no, yes,' period."
In addition, according to the evidence presented at trial, Solofa met on April 14, 2009, with the same bus parts vendor, who told Solofa that a grand jury subpoena requiring production of specific documents and records, some of which related to Solofa and to the bus parts kickback scheme, would be issued shortly.  After discussing how to respond, Solofa told the vendor that, as for documents he did not want to produce, "[t]he only way to do it with those copies is burn it.  That way, they won't see it, and you won't worry that they might see it, you know. . . .  Just burn it, and nobody has a copy."
The head of the School Bus Division for the American Samoa Department of Education, Gustav Nauer, 47, was also convicted for his role in the bribery scheme.  On June 4, 2012, Nauer was sentenced to 25 months in prison.
This case was prosecuted by Principal Deputy Chief Raymond N. Hulser and Trial Attorney Tim Kelly of the Public Integrity Section in the Justice Department's Criminal Division.  The case was investigated by the FBI; the Office of the Inspector General for the U.S. Department of Education; and the Office of the Inspector General for the U.S. Department of the Interior.
12-734
Top
Printable view
Last Modified: 06/15/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov